BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in PDX North,
Inc., v. Robert Asaro-Angelo, in his official capacity as
the Commissioner of the Department of Labor and
Workforce Development of the State of New Jersey, was
sent via Next Day Service to the U.S. Supreme Court,
and via Next day and e-mail service to the following
parties listed below, this 19th day of March, 2021:
Emily M. Bisnauth
Office of Attorney General of New Jersey
25 Market Street
Richard J. Hughes Justice Complex
8th Floor, West Wing
Trenton, NJ 08625
(201) 705-8859
emily.bisnauth@law.njoag.gov
Christopher W. Weber
Office of Attorney General of New Jersey
Division of Law
25 Market Street
Hughes Justice Complex
1st Floor, West Wing
Trenton, NJ 08625
(609) 376-2960
christopher.weber@law.njoag.gov

Counsel for Respondent

Franklin Square

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

j 8790 Governor's Hill Drive
I Suite l 02

1300 I Street, NW, Suite 400E

www.beckergallagher.com

, Cincinnati, Ohio 45249

Washington, DC 20005

Jack L. Kolpen, esq.
Ian D. Meklinsky, esq.
Corinne McCann Trainor, esq.
Counsel of Record
Allison L. Hollows, esq.
Michael W. Sabo, esq.
Fox Rothschild LLP
Princeton Pike Corporate Center
997 Lenox Drive
Lawrenceville, NJ 08648
(609) 896-3600
ctrainor@foxrothschild.com

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 19, 2021.

fu;pl--

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affi.ant on the date below designated.

n~
l°t, dOd-/
-J-vl-v- tc~J /J-~- -

Date:

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohi :,
My Commission Expires
:ebrurrv 1~. ~ 123

